                                                     NATIONAL SCIENCE FOUNDATION 

                                                      OFFICE OF INSPECTOR GENERAL 

                                                        OFFICE OF INVESTIGATIONS 


                                     MEMORANDUM OF INVESTIGATION

 Case Number: 110050016                                                                    Page 1 of 1



          The Office of Inspector General received an anonymous complaint that a researcher \ at a
          university2 misused NSF award 3funds.

          The university conducted an audit of the researcher's travel expenses for the NSF Award. As a
          result of the audit, the university returned $15,223.61 to NSF.

          The university provided documentation to show they took corrective action to help prevent
          related overcharges to NSF in the future. Due to the university's refund, and insufficient
          evidence to pursue fraud illegalities, this investigation is closed.




                                      Investigator                                      Date

     Sign / date                                                    November 4,2010

NSF OIG Form 4 (1\ /02)
